OIG Investigative Reports Press Release El Paso, TX., 07/31/2013 - Federal Judge in El Paso Sentences New York Businessman for Role in Scheme to Defraud the El Paso Independent School District
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Department of Justice
United States Attorney Robert Pitman
Western District of Texas
FOR IMMEDIATE RELEASE
WEDNESDAY, JULY 31, 2013
Contact: DARYL FIELDS
(210) 384-7440
FEDERAL JUDGE IN EL PASO SENTENCES NEW YORK BUSINESSMAN FOR ROLE IN SCHEME TO
DEFRAUD THE EL PASO INDEPENDENT SCHOOL DISTRICT
In El Paso yesterday afternoon, U.S. District Judge Frank Montalvo sentenced 65-year-old Joseph O’Hara of
Albany, NY, to three years in federal prison for scheming to secure and maintain a lucrative El Paso Independent
School District special education services contract announced United States Attorney Robert Pitman and Federal
Bureau of Investigation Special Agent in Charge Mark Morgan.
In addition, Judge Montalvo ordered that O’Hara pay more than $2.89 million in restitution to EPISD and be placed
under supervised release for a period of three years after completing his prison term. Judge Montalvo also ordered
that O’Hara report to the U.S. Bureau of Prisons no later than December 3, 2013, to begin serving his sentence.
On May 10, 2013, O’Hara pleaded guilty to one count of conspiracy to commit mail fraud and deprivation of honest
services. By pleading guilty, O’Hara admitted that from February 2003 to October 2007, he conspired with his
business partner Gary Lange of Haslett, Michigan, former El Paso Independent School District Associate
Superintendent Tomas Gabaldon and former El Paso Independent School District Trustee Sal Mena to fraudulently
secure and maintain a contract to provide software to the special education department of EPISD and to provide
services to obtain federal and state reimbursement funds for special education programs. O’Hara’s company failed
to provide working software to EPISD as required by the contract and it submitted improper claims for
reimbursement funds.
"The sentencing of Mr. O’Hara demonstrates the FBI’s unwavering commitment to target those individuals involved
in public corruption in the El Paso community. Nothing erodes public trust more than those who conspire to
illegally line their own pockets from taxpayer dollars," stated FBI Special Agent in Charge Mark Morgan.
On August 22, 2012, Gabaldon was sentenced to four years in federal prison and ordered to pay over $2 million in
restitution for his role in the scheme. Mena and Lange are still pending sentencing after pleading guilty to
conspiracy charges.
The case was investigated by the Federal Bureau of Investigation along the U.S. Department of Education's Office
of Inspector General. Assistant United States Attorneys Chris Skillern, Donna Miller and Laura Gregory prosecuted
this case on behalf of the Government.
Top
Printable view
Last Modified: 08/02/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov